<html>
<title> - OVERSIGHT OF THE DRUG ENFORCEMENT ADMINISTRATION</title>
<body><pre>[Senate Hearing 113-886]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-886

                            OVERSIGHT OF THE
                    DRUG ENFORCEMENT ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2014

                               __________

                          Serial No. J-113-58

                               __________

         Printed for the use of the Committee on the Judiciary








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-398 PDF                WASHINGTON : 2018                 









                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                       APRIL 30, 2014, 10:10 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    30
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2
    prepared statement...........................................    32

                                WITNESS

Witness List.....................................................    23
Leonhart, Hon. Michele M., Administrator, U.S. Drug Enforcement 
  Administration, Washington, DC.................................     4
    prepared statement...........................................    24

                               QUESTIONS

Questions submitted to Hon. Michele M. Leonhart by:
    Senator Blumenthal...........................................    39
    Senator Cornyn...............................................    48
    Senator Feinstein............................................    36
    Senator Flake................................................    50
    Senator Grassley.............................................    41
    Senator Hatch................................................    45
    Senator Sessions.............................................    47
    Senator Whitehouse...........................................    38

                                ANSWERS

[Note: At the time of printing, after several attempts to obtain 
  responses to the written questions, the Committee had not 
  received any communication from Hon. Michele M. Leonhart.]

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Colorado Information Analysis Center (CIAC), CIAC Report 14-
  65046, ``Alert Bulletin Marijuana Infused Edibles,'' March 19, 
  2014, bulletin.................................................    61
National Association of Chain Drug Stores (NACDS), Arlington, 
  Virginia, statement............................................    51
United States Department of Justice, Drug Enforcement 
  Administration, Eric J. Akers, Deputy Chief, Office of 
  Congressional and Public Affairs, Springfield, Virginia, May 
  10, 2014, letter...............................................    63

 
                            OVERSIGHT OF THE 
                    DRUG ENFORCEMENT ADMINISTRATION 

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Grassley, 
Hatch, Sessions, and Flake.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Good morning. I apologize for the delay. I 
thank the Senators who are here: Senator Grassley, Senator 
Sessions, Senator Flake, and of course, Senator Whitehouse, who 
will take over this hearing at some point.
    I had a chance to chat with Administrator Leonhart in the 
back, and I appreciate very much having you here.
    This hearing comes at an important time. Our Nation 
continues to struggle with an old and unfortunately persistent 
problem: the seemingly unrelenting addiction to powerful 
controlled substances. But I think a lot about that problem is 
evolving and changing. The drugs of choice are evolving, along 
with the path to addiction for many Americans.
    As I said to Administrator Leonhart, it is a lot different 
from the days decades ago when I was a prosecutor or when 
Senator Sessions or Senator Whitehouse were prosecutors. 
Prescription drug abuse has reached epidemic levels. Overdoses 
from prescription opioids now account for more than half of all 
drug-related deaths. That is something we did not see not very 
long ago.
    Around the country, law enforcement is now demonstrating a 
strong commitment to creative approaches to combating drug 
abuse. We have seen that enforcement alone is not enough. No 
amount of arrests or seized drugs can truly break America's 
drug habit. We need a comprehensive approach--one that includes 
prevention, treatment, and re-entry services.
    A month ago I brought the Senate Judiciary Committee to 
Rutland, Vermont. Rutland is a very small city, and like rural 
towns across the country, it has seen a surge in addiction to 
heroin and other opioids. But the community has come together 
to respond in remarkable ways. At that hearing it was not a 
case of people pointing fingers at each other. They were 
saying, ``We are all in this together.''
    The police department almost functions as a community 
organizer. They partner with early intervention coordinators, 
social workers, and even building inspectors to address 
addiction from every angle.
    I am encouraged to see that the Justice Department is 
similarly committed to a comprehensive approach. Through its 
Smart on Crime Initiative, the Department is supporting 
prevention and re-entry efforts and promoting fairer sentences.
    The DEA is committed to addressing drug abuse through 
prevention. The DEA has long supported educational programs 
that aim to reduce demand for drugs. I view in the same light 
the Office of Diversion Control, which controls the 
distribution of prescription drugs.
    Now, I was pleased to see that, in conjunction with DEA, 
authorities in Vermont just last weekend recovered over 3,300 
pounds of unused prescription drugs through a takeback event. 
Now, 3,300 pounds--remember, we are a State of only 620,000 
people. This was enormous. That means hundreds of thousands of 
unwanted pills are no longer sitting on shelves and susceptible 
to abuse. Effective diversion control means effective addiction 
prevention.
    While the DEA is doing critically important work in many 
areas, I do have some concerns that I have raised. I have 
concerns about some of the DEA Special Operation Division's 
investigative techniques. We have discuss this privately, and 
given the sensitivity of it, we will not discuss it openly in 
this hearing. But it is an area in which additional oversight 
is needed, and I want the DEA to cooperate with those of us who 
have the responsibility of oversight.
    I have repeatedly sought answers regarding the DEA's 
involvement in a 2012 counternarcotics operation in Honduras, 
in which four Honduran civilians were killed including a 14-
year-old boy. And the DEA must make changes to ensure this type 
of tragedy does not happen again. I realize that is before your 
time, but I want you to take a look at that because if they 
have not taken steps to ensure this would not happen again, I 
would have difficulty supporting DEA's participation in such 
operations in the future, either wearing my hat in this 
Committee or in the Appropriations Committee.
    Administrator, thank you very much, and thank you for the 
time you spend on this. I am eager to hear your ideas, and 
right after we hear from Senator Grassley, we will go to you.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Welcome, Administrator Leonhart. Thank 
you for coming. Your agency faces many challenges as it tries 
and works to keep us safe from dangerous drugs.
    I am going to point out in my questioning and in my 
statement that some of those problems coming from the executive 
branch make your job even harder from my point of view.
    The United States is experiencing this epidemic that the 
Chairman spoke about of opioid abuse, particularly heroin and 
prescription painkillers. We recently had a survey where 
700,000 Americans reported using heroin in the past year. That 
seems to be increasing.
    We read about the death of Philip Seymour Hoffman, pointing 
out as just one example of a heroin overdose.
    Law enforcement, including your agency, has a critical role 
to play in responding to the epidemic. And, of course, we 
cannot arrest our way out of this, but we can maintain the 
current law enforcement tools that help the DEA go after those 
who are trafficking heroin.
    Unfortunately, as I said about the executive branch making 
your job more difficult, there is disagreement on this 
Committee on this issue, but I think the sentencing bill that 
the administration supports does just the opposite. The 
proposed Smarter Sentencing Act that recently passed out of 
this Committee cuts the mandatory minimum sentences for those 
who manufacture, import, or distribute even heroin--and it cuts 
that sentence in half. These are penalties for dealers, not 
users. In the midst of the heroin epidemic, as I said to you, I 
think that this makes no sense.
    I do not want you to take my word for it. In opposing the 
bill, the Federal prosecutors themselves wrote that the current 
system of penalties is the ``cornerstone'' of their ability 
``to infiltrate and dismantle large-scale drug-trafficking 
organizations and to take violent armed career criminals off 
the streets.'' That is a quote from Federal prosecutors. And I 
do not want to remove that cornerstone.
    Another challenge for your agency that I hope to discuss is 
the mixed message from the administration that young people get 
about the dangers of marijuana use. The Department of Justice 
declined to challenge State laws that have legalized marijuana, 
despite the obvious conflict with Federal law. In an interview, 
the President said this, that it was ``important'' that these 
States ``go forward'' with legalization. This has caused 
confusion and uncertainty about whether using marijuana is 
really something to be discouraged.
    We had a recent scientific study that served as a reminder 
of how dangerous marijuana use can be. A paper published 
earlier this month in the Journal of Neuroscience concluded 
that even casual marijuana use was associated with potentially 
harmful changes to the brains particularly of young people.
    The Department of Justice apparently concluded that so long 
as the States that legalize marijuana create effective 
regulatory schemes, then Federal enforcement did not consider 
that a priority. Those priorities include the prevention of 
violence, increased use among minors, and diversion of 
marijuana to other States. But we are seeing particularly in 
recent news stories minors getting very much involved in that 
use, and even sale and diversion of marijuana to other States. 
They are telling me even in Iowa there is a lot of marijuana 
coming from Colorado.
    So I hope the administration is taking a look at the 
announcement they made of what they considered a priority for 
prosecution.
    As a result, it is hardly surprising that a senior DEA 
official recently told the Senate Caucus on International 
Narcotics Control that what was happening in these States--
meaning Washington or States where there has been recreational 
marijuana or even medicinal marijuana--is ``reckless and 
irresponsible.''
    At this point, those words apply equally to the Department 
of Justice's policy that has permitted States to legalize a 
drug for recreational purposes that Congress has chosen to make 
illegal.
    As the above examples attest, marijuana is being combined 
with cookies and candy in Colorado in a way that is attractive 
to young people, including children. I hope to discuss the 
legislation that Senator Feinstein and I introduced last year 
called ``Saving Kids From Dangerous Drugs Act,'' that we can 
get something done to deter this kind of marketing.
    I am going to put the rest of my statement in the record, 
Mr. Chairman.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much. We will look at any 
legislation you or anybody else may come up with. I am always 
worried about whether legislation steps on States' rights and 
what they might be doing.
    Please go ahead, Ms. Leonhart.

STATEMENT OF HON. MICHELE M. LEONHART, ADMINISTRATOR, U.S. DRUG 
           ENFORCEMENT ADMINISTRATION, WASHINGTON, DC

    Administrator Leonhart. Chairman Leahy, Ranking Member 
Grassley, and Members of this Committee, it is my honor to 
appear before you to discuss the Drug Enforcement 
Administration and our role in reducing crime and protecting 
the American people from drugs. I welcome the opportunity to 
continue the successful and positive relationship that DEA and 
the Department of Justice have with this Committee.
    Throughout our more than 40-year history, DEA has 
successfully pursued the world's most violent and prolific 
drug-trafficking organizations, and this includes the Sinaloa 
cartel, whose leader, Joaquin ``El Chapo'' Guzman, was arrested 
earlier this year by Mexican authorities. And as the head of 
the Sinaloa cartel, Guzman contributed to the death and 
destruction of millions of lives all around the world, and the 
arrest of the world's most wanted international drug trafficker 
is a major step forward in our shared fight against drug 
trafficking and violence.
    In the past year, ten more of the most wanted drug 
traffickers, known as ``CPOTs'' by the Department of Justice 
and otherwise known as ``kingpins,'' have been arrested. Six 
were extradited to the United States, and among them was Daniel 
``El Loco'' Barrera, who for more than 20 years led an 
organization that distributed hundreds of tons of cocaine 
around the world, leaving a trail of violence in his wake. 
Barrera was considered one of the last true drug kingpins in 
the Andean region.
    Since we started tracking CPOTs in 2003, a total of 179 
have been identified around the world, and of those, through 
our enforcement efforts, 75 percent have been indicted, 55 
percent have been arrested, and 31 percent have actually been 
extradited to the United States, and this is a record that we 
are very proud of.
    By keeping the pressure on drug traffickers and stripping 
them of almost $27 billion in revenue since 2005, we have 
prevented the use of these funds to fuel the next round of drug 
production and other nefarious activities. This is one of DEA's 
contributions to the comprehensive national drug control 
strategy, which has guided a decrease in the overall rate of 
illicit drug use in America by 35 percent in the past 35 years. 
And just like the efforts to eliminate cancer or poverty, the 
fight against drug abuse is a generations-long struggle, and it 
will not be won overnight.
    Since 2006, the number of current users of any form of 
illicit drug other than marijuana dropped 8 percent, and 
regular cocaine use dropped 32 percent between 2006 and 2012, 
and at the same time, methamphetamine use is down by 40 
percent. But we still have areas of concern.
    An estimated 6.8 million Americans regularly use 
prescription drugs for non-medical reasons. As troubling, 80 
percent of first-time heroin users started by using 
prescription pain pills.
    The availability of both heroin and marijuana is growing. 
In 2012, 438,000 Americans were addicted to heroin, and 10 
times that number were dependent on marijuana. From 2007 to 
2012, the number of regular heroin users in this country more 
than doubled, and not surprisingly, overdose deaths have 
increased as well.
    One trend we have seen over and over again is that drug use 
rises as the perception of risk decreases. We are seeing that 
now with marijuana. From 2008 to 2013, past month use of the 
drug increased among all 8th, 10th, and 12th graders surveyed. 
These increases parallel softening attitudes about the 
perceived risk of harm and disapproval associated with 
marijuana use.
    Marijuana use is a very serious problem in this country, 
and here are some of the facts:
    Marijuana-related emergency room visits increased by 48 
percent between 2007 and 2011. One out of every 15 high school 
seniors is a near-daily marijuana user. In fact, since 2009, 
more high school seniors have been smoking marijuana than 
smoking cigarettes. And researchers have found that adolescents 
who use marijuana at least 4 days per week lost an average of 8 
IQ points.
    These facts paint a picture of the choices we have to make 
and of the future we will be facing. Drug abuse is devastating 
on a personal level, and drug trafficking poses a serious 
threat to society because of the violence and the hazards that 
accompany it and the terrorist organizations that are often 
funded by it.
    So now is not the time to sound the retreat but, rather, we 
should be redoubling our efforts. DEA will continue attacking 
these threats using tools and techniques that have worked so 
well for us in the past: close relationships with Federal, 
State, local, and international partners, information sharing 
and case coordination, and going after what drug traffickers 
value most--that is, their money.
    I have great confidence that DEA, with your support, will 
continue to build on our gains and overcome the challenges that 
lie ahead, and those challenges are not insignificant. Today's 
drug traffickers exploit new and evolving technologies to 
communicate, to launder ill-gotten gains, to facilitate the 
smuggling of drugs and weapons, and develop new substances that 
can be abused.
    So thank you for your partnership, and I look forward to 
continuing to work with this Committee and Congress on these 
important issues, and I ask that my written statement be added 
to the record.
    Chairman Leahy. It will be placed in the record.
    [The prepared statement of Ms. Leonhart appears as a 
submission for the record.]
    Chairman Leahy. We do appreciate you being here. After all, 
you are somebody with 30 years of law enforcement experience, 
starting as a Baltimore City police officer, then as a DEA 
special agent, so you can speak with firsthand knowledge of 
many of these issues.
    I am concerned with how prescription opioids have become 
the drug of choice in America. I think we have seen it all over 
the country. Demand for treatment has skyrocketed. Deaths from 
overdose have far eclipsed all other drugs. Opioid addiction 
all too often leads to heroin, as you know. We see this in 
every State, including my own of Vermont. And that is why it is 
concerning to see powerful new opioids without any abuse 
deterrent technologies enter our communities.
    The most recent example I have been told about is Zohydro. 
What is DEA doing to monitor the use of this? And what will you 
do if you find widespread abuse?
    Administrator Leonhart. Thank you, Senator, for mentioning 
the opioid problem. It is the Nation's fastest growing drug 
problem, and it is not confined to large cities or the west 
coast versus the east coast. It is across our country. So DEA 
shares your concerns.
    We also share the concern with any new opioids that come on 
the market and are prepared and have to be prepared for 
additional use to become additional abuse and----
    Chairman Leahy. Does that include Zohydro?
    Administrator Leonhart. We anticipate, because it is really 
the first hydrocodone, pure hydrocodone product coming out, 
that we will have addicts that will seek it out just because it 
is pure hydrocodone. We are concerned because anytime you put a 
new opiate on the street--we all remember the days of 
Oxycontin, when that was released. This is a drug that is 
coming out without any tamper-resistant ability to prevent it 
being crushed, smoked, and snorted by addicts.
    So we are very concerned, but we also believe that the 
enforcement efforts that we have put forth and what we have 
done to really move our agencies toward prioritizing 
prescription drugs will help alleviate, will help confront any 
additional use or abuse we see.
    Chairman Leahy. I would hope also the manufacturer would 
start cooperating with you; otherwise, they face the potential 
for backlash from Congress, which is something they probably 
would not want to face. So I hope they do cooperate with you.
    We also consistently hear from Vermont law enforcement that 
a stronger DEA presence is needed in southern Vermont. You have 
agents stationed in Burlington. Where are we toward the 
possible permanent assignment in southern Vermont of DEA 
agents?
    Administrator Leonhart. Well, to help in Rutland--and I 
have met with the police chief and met recently with members of 
the Vermont Highway Patrol, we have been very active working in 
Vermont. We have actually--even though Burlington is a small 
office, we have actually sent agents temporarily, TDY on a 
continuous basis, to help in Rutland and make sure that we have 
an enforcement presence there.
    I am hoping by the end of the week or even earlier next 
week that I will be having a conversation with the U.S. 
Attorney in Vermont who has been talking to our special agent 
in charge. And as we make decisions about moving forward with 
resources or reallocating resources, I will take into account 
what his needs are and what he feels DEA could do to assist him 
in his district.
    Chairman Leahy. And by highway patrol, I assume you mean 
the Vermont State Police, which do a lot----
    Administrator Leonhart. That is correct.
    Chairman Leahy [continuing]. More than patrolling the 
highway. They handle many other things. I am very proud of what 
they do.
    I sent a letter earlier this year expressing my concerns 
about certain DEA investigative techniques. Some of that 
information remains classified. Some has been deemed law 
enforcement sensitive. We do need more of a public dialogue. 
Senator Whitehouse and I have both raised this. So will you 
cooperate with our Committee's oversight? Will you advocate 
within the executive branch for additional transparency with 
respect to DEA's investigative efforts?
    Administrator Leonhart. Senator, I am limited in what I can 
talk about regarding those programs.
    Chairman Leahy. I understand.
    Administrator Leonhart. But just be assured we have had 
oversight of those programs since 1992, and we will work with 
you. I know that we have come up to brief some Members of this 
Committee, and we will continue to look at ways to improve. And 
if it is found that additional oversight is needed, we welcome 
a look at what we have been doing.
    Chairman Leahy. Well, Senator Whitehouse and I and others 
will continue to ask questions about that. I always worry when 
things are suddenly classified, and I realize that a lot of 
things should be, but sometimes things are classified because 
they do not stand the light of day. And we want to make sure 
that is not the case. And I know that some of these practices 
have been suspended by the Department of Justice pending 
review, and that is what I mean about facing the light of day. 
Sometimes they do not stand up for that. And without going into 
classified matters, we will discuss this further.
    I also sent last year a letter regarding the 
counternarcotics operation in Honduras in 2012 that killed four 
civilians, including a 14-year-old boy. In response to my 
letter of last year, I received a response this week.
    Have you changed at DEA these types of counternarcotics 
operations as a result of the Honduras experience? Are you 
doing things to minimize casualties, especially civilians?
    Administrator Leonhart. Senator, I assure you that we have 
looked at that operation from many sides to figure out, number 
one, how to learn from that; number two, you know, working with 
our Honduran counterparts, making sure that we are providing 
them the best training that we can. I want to assure you that 
we feel very, very bad about any tragedy, and this with the 
loss of four civilians is included.
    We going forward, however, have looked at ways that we 
could improve operational planning, how we can improve the 
training that we are giving.
    Chairman Leahy. Considering the corruption and other 
problems in Honduras, I would hope that you and your department 
would put very strict controls because otherwise, we could have 
real problems.
    And, last--and I realize I have gone over my time--the farm 
bill has provisions for hemp research by universities and State 
departments. A lot of hemp is used in clothing and other 
material. People want to conduct serious research, not only in 
my State but a lot of other States. When are you going to 
provide guidance to the public on how to conduct this research? 
And will you work with the U.S. Department of Agriculture, 
which is looking at the research here, on the commercial nature 
of hemp in clothing and everything else?
    Administrator Leonhart. Yes, Senator. With the passage of 
the farm bill as well as directed from the Deputy Attorney 
General from last August on priorities, use of resources for 
the Department on marijuana cases, the Department is currently 
reviewing both of those to better understand how we need to go 
forward with hemp issues. And working with the U.S. Department 
of Agriculture and other stakeholders, we will make sure that 
once decisions are made by the Department, that we put out 
guidance and that we work with those stakeholders.
    Chairman Leahy. Thank you, and I apologize to Senator 
Grassley for going over time, and I yield to him.
    Senator Grassley. I do not complain because you go over 
time because you always give me equal time.
    Chairman Leahy. That is right.
    Senator Grassley. I am going to repeat a sentence that I 
gave in my opening statement. It is hardly surprising that a 
senior DEA official recently told the Senate Caucus on 
International Narcotics Control that what was happening in 
these States--meaning Washington and Colorado and maybe also, I 
think, by implication where there was medicinal marijuana--is 
``reckless and irresponsible.''
    So I want to go then to the Cole memo of last August where 
the Department of Justice established a number of Federal 
priorities to guide its marijuana enforcement activities in 
States that legalized it. However, the memo also warned that, 
``If State enforcement efforts are not sufficiently robust to 
protect against the harms set forth above, the Federal 
Government may seek to challenge the regulatory structure 
itself.''
    Now, I do not agree that the administration should be 
talking about what they are going to prosecute or not 
prosecute, but if they follow closely whether or not the State 
is doing what the Justice Department said you had to do if they 
were not going to have prosecution, then that makes it a little 
more responsible.
    So then leading up to my question, the first three 
priorities listed in the Cole memo are: one, preventing the 
distribution of marijuana to minors; two, preventing revenue 
from the sale of marijuana going to criminal enterprises 
involving drug-trafficking gangs and cartels; and, three, 
preventing the diversion of marijuana to other States.
    So a simple question: Could you tell us what the trends are 
in Colorado in these areas?
    Administrator Leonhart. Senator, on those enforcement 
priorities you discussed, obviously DEA and our State and local 
law enforcement partners are concerned about marijuana going 
from Colorado or Washington to surrounding States. And we are 
very concerned about what we see happening in Colorado.
    Take, for instance, Kansas, and we have talked to our 
partners in Kansas, and they have already been seeing a 61-
percent increase in marijuana seizures coming from Colorado, 
and these seizures were destined for 18 other States. They have 
also seen an increase, a 49-percent increase in money seizures 
of money going back to Colorado that they assume were a part of 
the proceeds coming back from marijuana loads. So that is of 
great concern to us, as is the first priority, which is 
preventing the distribution of marijuana to minors.
    Senator Grassley. Now, on that latter point, you have seen 
some of that very much advertised on recent news reports about 
4th graders selling marijuana for $11 as an example. When you 
said you are concerned about sales to minors, have you observed 
sales to minors like I think I have heard in the news reports?
    Administrator Leonhart. Well, not only in Colorado, but 
other States that have marijuana dispensaries, where we have 
seen that, those instances give us reason to take action, and 
we have. We have closed down dispensaries. We have done 
investigations, and especially, you know, I am thinking of one 
in particular in California where we got a call from a school 
principal who warned us that a local dispensary had put notices 
on the cars in the high school parking lot advertising, you 
know, ``Stop by.''
    We also have complaints from citizens about their kids 
being stopped on the way to school and being given--or asked to 
come into the store and being given samples. So those are what 
causes most of our investigations.
    Senator Grassley. Maybe as a matter of a summary, would you 
say that the trends are moving in the right direction or the 
wrong direction?
    Administrator Leonhart. The trends are what us in law 
enforcement had expected would happen.
    Senator Grassley. Okay. So it does not end up being a 
surprise to you.
    As a follow-up to that, and my understanding is that you 
are not involved in the prosecution--I mean, in carrying out 
the Department of Justice's recommendations on prosecution, but 
have you talked to anyone at the Department of Justice who is 
monitoring what is happening in Colorado for the purposes of 
re-evaluating its decision not to challenge the State law? And, 
second, do you know whether anyone there is actually doing so?
    Administrator Leonhart. Well, I can tell you we have been 
talking with the Department of Justice and the U.S. Attorney in 
Colorado. In fact, on Friday, we were able to--based on an 
indictment, we made arrests for exactly what we have been 
concerned about. These were Colombian nationals who had 
invested in a marijuana business in Colorado. We took action. 
Part of the investigation went down last fall, and we were able 
to obtain indictments and make arrests, and there is more to 
come.
    So we have been working with the Department and working 
with the U.S. Attorney's Office to bring cases that we at DEA 
feel are significant and violate those eight factors.
    Senator Grassley. Do you think that some of the things you 
just told me have led to any discussion about revisiting the 
decision not to challenge the State law? Has it gone that far?
    Administrator Leonhart. I am not aware of any discussion. I 
know the stakeholders within Government--ONDCP, HHS, and 
others--you know, we are finding a way to look at the data that 
is coming out from those States so that we are in a better 
position to assess what is going on.
    Senator Grassley. But then is that information being 
accumulated to advise people in prosecution whether or not 
these States ought to be left alone or not? That is what I was 
getting at. Do you think it is being revisited by the people 
that originally made the decision as a result of some of the 
things you can tell them if they listen to you?
    Administrator Leonhart. I believe that they are assessing 
it. To what extent they are assessing it, I do not know.
    Senator Grassley. Okay. Let me go to the heroin epidemic. I 
am sure you would agree that enforcement of our drug-
trafficking laws is an important component of the Federal 
response to our country's heroin epidemic, so I ask a question 
about heroin trafficking.
    First, I want to be clear about whether mandatory minimums 
are applicable to heroin users or dealers. The law currently 
applies a 5-year mandatory minimum sentence for possessing with 
the intent to distribute 100 grams of heroin. So my first 
question is: How many hits does 100 grams of heroin contain? 
And is that number of hits consistent with someone who is just 
a plain dealer?
    Administrator Leonhart. Well, Senator, to answer your 
question, this packet is a 1-gram packet, so 100 of these. 
Depending on the experience of the user--because it will 
change. If you are a novice user, you will not need as much. If 
you are an experienced user, you will need more. And this is 
not taking into account what type of heroin it is or what part 
of the country this is coming from. But, on average, with one 
hit being about 30 milligrams, this one packet--100 of these 
would produce about 3,300 to 3,500 uses.
    Senator Grassley. Okay. Well, then, is that number of hits 
consistent with someone who is just a plain user?
    Administrator Leonhart. That in our world would be dealer 
quantities.
    Senator Grassley. Okay.
    Administrator Leonhart. Traffickers.
    Senator Grassley. I will have to end with this because my 
equal time is just about up. As I mentioned earlier, our 
Federal prosecutors making these cases on the line every day 
have told us that the system of penalties in place now is a 
critical tool for them to be able to dismantle drug-trafficking 
networks to keep our communities safe. Do you and your DEA line 
agents find the mandatory minimum sentence to be a valuable 
tool? And if so, explain why you consider it a valuable tool?
    Administrator Leonhart. Having been in law enforcement as 
an agent for 33 years, a Baltimore City police officer before 
that, I can tell you that for me and for the agents that work 
for DEA, mandatory minimums have been very important to our 
investigations. We depend on those as a way to ensure that the 
right sentences are going to equate to the level of violator 
that we are going after.
    Senator Grassley. Tell Senator Leahy he can have 23 more 
seconds. I went over that.
    [Laughter.]
    Senator Grassley. Thank you very much, Mr. Chairman.
    Senator Whitehouse [presiding]. Thank you very much, 
Senator Grassley.
    I have two questions that I will address now with the 
Administrator. The first has to do with the development of your 
policies as prescription drugs, and the abuse of prescription 
drugs, and particularly opioid prescription drugs, increasingly 
dominates America's drug abuse problem. My worry is that as you 
direct more law enforcement attention to that problem and more 
regulatory attention to that problem, you may intrude on the 
legitimate and proper use of those prescription drugs. And I am 
wondering what the structure is within DEA for evaluating those 
concerns, because while it is definitely a concern that we 
address the abuse of these prescription drugs, it is also a 
concern if an 80-year-old woman who is alone in the world and 
living in a nursing home is in terrible pain at 2 o'clock in 
the morning and there is no way for her to get relief from her 
pain because we have made it such a fortress of regulation 
around her bedside that you have to get a doctor up at 2 in the 
morning to go do that, and that is not likely to happen.
    How does the sensitivity to the concerns of the elderly and 
other needy users of these drugs, legitimate users of these 
drugs, play into your calculation?
    Administrator Leonhart. Senator, at DEA, you know, we have 
the Office of Diversion Control, and working with them, it is 
very important to strike that balance. It is very hard, but it 
is very important to us because----
    Senator Whitehouse. Who is the advocate for that balance 
within DEA?
    Administrator Leonhart. Well, I am the advocate for the 
balance, but so are the men and women that are working not only 
in the Office of Diversion Control but even with our special 
agents in charge, and I can give you an example. We have----
    Senator Whitehouse. I mean more specifically, in terms of 
the development of this regulation, there are people who are 
going to be involved in it. Is there somebody in that who 
actually has the task of trying to look at this from the 
legitimate user's point of view and make sure that that point 
of view is brought into the discussion?
    Administrator Leonhart. Several different levels, and it 
depends on what regulation, but regulations that require 
rulemaking always have a comment period, and so the regulations 
that we have put out as interim or as proposed rulemaking, all 
of those comments have come back, and we have had some that 
have come back with 200-plus comments. All of those comments 
are taken into consideration and addressed. And so those 
comments and concerns are looked at by the Office of Diversion 
Control in coming up with a final rule, but they are also 
looked at----
    Senator Whitehouse. So the comment process is really key to 
that, because it is outside voices coming through the comment 
process that are really the advocacy voice on this side of that 
balance.
    Administrator Leonhart. It is outside voices, but as the 
rule moves within the agency at the chief of diversion control 
level, he is looking at it, and he has done a very good job 
making sure that there is that balance. And then before it gets 
to the Deputy Administrator or myself, there is discussion 
about impact on any rule that we sign with the Office of 
Diversion Control.
    Senator Whitehouse. Okay. As this goes forward, just do not 
forget the elderly lady alone and in pain as you are trying to 
crack down, very legitimately, on these abused but regulated 
and lawful prescriptions.
    The other question is on electronic prescribing. The agency 
and I have had a long back-and-forth on this subject, and after 
a considerable effort and considerable time, ultimately you 
changed the regulations to allow electronic prescribing of 
controlled substances, which I think was a huge step forward.
    One of the values of that is allowing for law enforcement 
access to data that the system produces so that you know if a 
podiatrist is prescribing lots of hydrocodone, maybe that is 
worth looking into. If the same individual is going to five 
different doctors and five different pharmacies and getting 
prescriptions filled for oxycodone, maybe that is worth looking 
into. And if somebody goes from 50 prescriptions a month to 
500, maybe that is worth looking into.
    But I do not see that developing very effectively between 
DEA and the States, and I am told that the Office of the 
National Coordinator for Health Information Technology is right 
now working to develop consensus standards for exchanging this 
kind of information with the prescription drug monitoring 
programs. I am not aware that DEA is actually involved in that 
conversation. Similarly, there is a White House initiative 
called the ``National Strategy for Trusted Identities in 
Cyberspace,'' which helps deal with authentication and other 
issues when you are dealing with electronic information. And I 
am not aware that DEA is involved in that process either.
    Are you involved in those processes, and should you be?
    Administrator Leonhart. Senator, I will go back and check 
on the first one you mentioned. I am not aware of, and we very 
well could be. On the second one, I know we have been involved 
in the certification process, if that is what you are talking 
about. We have certified the companies that then go in and 
bless whatever technology is going to be used. So we are often 
involved in the conversation. But having been involved with the 
trusted IDs, as you--the conversation as you have just 
described, I will need to get back to you on that.
    Senator Whitehouse. Okay. Well, I look forward to working 
with you. I think that the value of moving toward electronic 
prescribing for controlled substances from an enforcement point 
of view is to be able to identify peculiarities and outliers 
for further law enforcement investigation. And if you are not 
engaged in getting that done, you are not helping the program 
go forward.
    I will stop right here and end the tradition of going well 
over time and yield to Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and I agree with 
you that prescription drugs, as we described in Mobile a number 
of years ago, the illegal use of prescription drugs is a 
winnable war. I mean, it is something that can be controlled, 
and I believe a united effort can make real progress in that. I 
hope you will continue to work at it.
    Isn't it true that a number of illegal prescription drugs 
that are found on the streets may actually have been paid for 
by Medicaid, Medicare, or private insurance and, indeed, 
represent a fraud on those companies and the taxpayers?
    Administrator Leonhart. You are absolutely correct, 
Senator. In fact, a number of our cases we work with other 
agencies who are investigating Medicaid and Medicare fraud. 
That is quite common in our diversion investigations.
    Senator Sessions. Our little plan was simply with the 
police department that everybody arrested with an illegal 
prescription drug, the case would not be plea bargained until 
they told where they got the drug, and we ended up forfeiting 
two drug stores who were distributing drugs out the back door 
illegally.
    My experience in this area came when President Reagan 
appointed me United States Attorney in the early 1980s, and we 
commenced a community-wide effort to create a climate of 
hostility to drug abuse. At that time, according to the 
authoritative University of Michigan study, over 50 percent of 
high school seniors acknowledged that they had used an illegal 
drug within the last year. That was a dramatic statistic. It 
threatened the future of our young people in every community in 
America. Groups came together to educate, to try to reverse 
that trend. As a part of that, those experts told us law 
enforcement, effective prosecution, arrest of drug dealers, as 
well as an effort to create a climate of hostility to drugs 
were all part of the goal. And within 10 years, the percentage 
of high school students using illegal drugs had dropped below 
25 percent. That was a tremendous achievement.
    The murder rate in 1980 per 100,000 was over 10; whereas, 
it dropped to under 5 today. And we have seen a continual drop. 
I think that even violence, would you not agree, is often 
connected to drug use and drug abuse?
    Administrator Leonhart. You are absolutely correct. I think 
that there is a correlation between the fact that we did 
approach the drug issue not only from enforcement but also from 
a demand reduction and messaging point. I think there is a 
correlation there. A 35-percent reduction in overall drug use 
since 1979, the same with high school seniors, and we see that 
same drop in violent crime. So I do see a connection.
    Senator Sessions. And you are seeing it edge upward now in 
recent years in drug use among young people?
    Administrator Leonhart. We were doing very good, we were 
doing very good until the messaging changed, and we started to 
see--we had an exploding prescription drug problem, and that 
has now become a heroin problem as well. But all the other 
numbers were dropping. Like I mentioned in my opening 
statement, we have seen cocaine use drop to all-time lows in 
this country. We have seen meth use drop by almost a third. So 
I believe that it is the holistic approach, you know, 
prevention on the front end, treatment, and enforcement, 
because a lot of people are not going to treatment without that 
nudge from law enforcement. It is important.
    Senator Sessions. Without that nudge from law enforcement. 
That is what the treatment people and the experts I dealt with 
said, some of the best. You have to be able to arrest people, 
and then you are intervening in their destructive habit, and 
you have a chance then to change their lives many times. And I 
have seen that with drug courts and other type ideas.
    But I have got to tell you, you said the messaging changed, 
and I think some people are irresponsible in what we are 
hearing about particularly marijuana. I thank you and some of 
your officials in DEA for speaking out and telling the truth 
about the dangers of marijuana. This is not a non-dangerous 
drug. And I got to tell you, in terms of messaging, the 
President's statement to me, I spent 12 years working with 
grassroots citizen groups to change the approach to drugs and 
the climate of drugs and to make it a hostile climate for drugs 
and explain the dangers of drug use.
    For 1 year, we met every single week--the mayor, the chief 
of police, the head of mental health--and we discussed these 
issues.
    This is why it is so painful to me and to every person who 
has dedicated themselves and given time, effort, and money to 
reversing drugs, for the President of the United States to say, 
``As has been well documented, I smoked pot as a kid. And I 
view it as a bad habit and a vice, not very different from 
cigarettes that I smoked as a young person up through a big 
chunk of my adult life. I do not think it is more dangerous 
than alcohol.''
    That is the President of the United States gratuitously 
making a statement of extraordinary importance. It has the 
potential to eviscerate the work of thousands of Americans, 
hundreds of thousands really, to try to explain the dangers of 
drugs.
    So let me ask you, did the President consult with you 
before he made that statement?
    Administrator Leonhart. I have not talked to the President 
about that interview.
    Senator Sessions. Do you know if he talked to the drug 
czar, the Office of National Narcotics and Drug----
    Administrator Leonhart. I do not know who he talked to.
    Senator Sessions. I do not think he talked with medical 
experts either, who tell us repeatedly of the dangers 
particularly to young people from marijuana use, much less 
others.
    Isn't it true that you do go through trends where we have 
seen a move from prescription drugs to heroin?
    My time is up. I will stop there, but maybe I will submit a 
written question. We need to find out more about the abuse and 
growth of heroin. In Alabama, we have seen a 400-percent 
increase in deaths in Birmingham from heroin use, from 14 in 
1910 to the upper 70s last year. That is a dramatic increase in 
deaths from heroin in Birmingham, Alabama.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you, Senator Sessions. And we all 
appreciate the experience that Senator Sessions brings to this 
equation as the former U.S. Attorney for his State.
    Senator Sessions. As the Chairman has been himself.
    Senator Whitehouse. I now recognize Senator Klobuchar, and 
before we start her clock, let me express my appreciation to 
her for the work that she has done, I think really leading this 
Committee, on synthetic drugs, bath salts, and so forth, and 
trying to improve the scheduling response to that. Senator 
Klobuchar.
    Senator Klobuchar. Well, thank you very much, Mr. Chairman, 
and thank you for holding that all-day meeting yesterday with 
Senator Portman about addiction and the work that needs to be 
done. I was pleased to take part in that.
    And we welcome you, Administrator Leonhart. You spent many 
years in Minnesota--how many years?
    Administrator Leonhart. Most of my childhood.
    Senator Klobuchar. Yes, well, we are proud to have you in 
this job. As you and I talked about last week, I recently led a 
delegation to Mexico a few weeks ago on the topic of sex 
trafficking as well as heroin, and I think we asked every 
single official there, including the Attorney General of Mexico 
and the head of the Federal police, about what was going on 
with heroin. I was there with Senator Heitkamp and Cindy 
McCain, wife of Senator John McCain. And as you know, about 50 
percent of the heroin is grown in Mexico and 60 percent of the 
heroin that we have come into the U.S. is either grown or 
distributed through Mexico.
    Just as Senator Sessions was talking about, we have seen a 
lot of overdoses in Minnesota. In the first half of 2013 
alone--this is the first half--91 people died of opiate-related 
overdoses in Hennepin and Ramsey County alone. It was a 
significant increase. Hospital visits for heroin nearly tripled 
from 2004 to 2011. And in the 7,000-person community of St. 
Francis, Minnesota, three young people have died of opiate 
overdoses since May, just to give you a sense of why this was 
important to me, why it was one of the reasons I went down to 
Mexico. And the things we learned there was, as you know--and 
you and I talked about the prosecutors there and the police 
working with our law enforcement and DEA are really ramping it 
up on the cartels. They were able to capture--Mexican police 
captured El Chapo in Mexico, long-time boss of the powerful 
Sinaloa drug cartel, which dealt in heroin. And talking to 
them, it appears there are still many issues with some of this 
now, with taking on some of the leadership of the cartels, we 
now have smaller gangs dealing in some of these drugs. We have 
lower-level kidnappings, express kidnappings for a day, and 
talking to the Mexican authorities, three things: one, that 
they are trying to beef up their southern border as they are 
seeing that pure heroin coming up from other countries down 
there, something we do not always think about; second, we 
pushed on the eradication issue, which has been successful in 
parts of Colombia, as we are starting to see not just the black 
tar heroin coming out of Mexico but some of their own white 
powder heroin; and then, of course, the third is the continuing 
coordination with our own DEA and law enforcement in going 
after these cartels.
    This comes at a time where Mexico is so eager to partner 
with not just the United States but Canada as part of the New 
Day in North America, and there is so much potential for our 
economies to work together. And I actually see some potential 
in a major way for us for exporting things down there if they 
can grow a middle class and take care of some of this violence 
which has really prohibited them from getting--reaching their 
full potential.
    So if you could talk a little bit about your efforts with 
Mexico.
    Administrator Leonhart. Thank you, Senator, for sharing 
what you discussed on your trip, and thank you for the 
interest, especially bringing up the heroin issue on your trip.
    The relationship between officials in Mexico and the DEA 
and the greater U.S. Government law enforcement community is 
still at an all-time high, very, very good collaboration, and 
that is why we have the success of being able to, you know, 
take into custody Chapo Guzman and how that impacts drug 
trafficking around the world, because he was such a big figure.
    We have a number of operations and a number of initiatives 
that we are working jointly with our Mexican counterparts and 
the other Government agencies, and this is starting to pay off 
in dividends, not just with El Chapo's arrest but also the 
arrest of other leaders and mid-level leaders of Los Zetas, of 
the Gulf cartel, of the Beltran-Leyva organization, and all of 
these organizations that really are responsible for most of the 
cocaine, most of the heroin, most of the drugs--meth--that are 
landing in our communities.
    So when Senators take an interest in pushing for good 
relationships with our Mexican partners, we need to thank you 
for that.
    Senator Klobuchar. Another issue which you and I have 
discussed at length is the bill--and this does relate to 
heroin, since four out of five heroin users now got their start 
with prescription drugs and got addicted to prescription drugs 
and then turned to heroin when they cannot find the 
prescription drugs, and oftentimes end up dead or addicted for 
life. One of the things that we passed 4 years ago, Senator 
Cornyn and I, passed out of this Committee and was signed into 
law, was the Secure and Responsible Drug Disposal Act. The idea 
here is to change some of the rules to make it easier for drug 
takebacks, not just have them once every 3 months in 
communities where we know they are collecting tons, but try to 
find more permanent arrangements in long-term care facilities 
as well as potentially pharmacies if the pharmacy is giving 
them the opportunity, not required but to take back these 
drugs, how easy that would be as we no longer want to tell 
people to flush these drugs down the toilet because of the 
water supply or my favorite, grind them up with coffee grinds 
and put them in the garbage, because I do not have a lot of 
coffee grinds in my house.
    So I think that is not realistic for busy families, and I 
am hopeful that we can get these done. You know, we have been 
frustrated by how long it took, and I heard a little rumor that 
maybe you got some comments back from the Office of Management 
and Budget this week, and that that means it is then back in 
your court, if that were to happen, how long do you think it 
will take to get these rules out?
    Administrator Leonhart. Well, I can tell you that we did 
get them back, and we have already taken care of a couple of 
the concerns. There is still a concern that we need to address, 
but we are hoping that we can do that very quickly. We remain 
optimistic, because I know we have all been waiting a very long 
time to have these regulations in place so that people can have 
kind of a 24/7 way to dispose of the medications that have for 
year languished in their medicine cabinet.
    Senator Klobuchar. Well, I appreciate that, because every 
time I see one of the public service ads, which I think are 
very good, showing someone open the medical cabinet and then 
seeing their kid's face because their kid is taking the drugs 
that should not be in there anymore, I always think, ``Okay, 
this is great. We are doing this. It is going to stop people 
from getting addicted and then moving on to heroin.'' But if 
they do not know what to do with the drugs and they have no 
real place to put them, we have a problem. So I appreciate that 
and urge you to get these rules done as soon as possible.
    Thank you very much, Administrator.
    Senator Whitehouse. Thank you, Senator Klobuchar.
    Now we turn to Senator Hatch who, among other things, is 
the lead on the Designer Anabolic Steroid Control Act with me.
    Senator Hatch. Well, thank you. It is certainly a pleasure 
always to work with you and other Members of this Committee. I 
appreciate the effort you put forward.
    Welcome, Ms. Leonhart. We are so grateful to have you here. 
I first want to raise the problem of marijuana cultivation on 
land in my home State of Utah that the Federal Government 
currently owns. The Federal Government owns a majority of land 
in only five of the 50 States, and that figure is actually 
around 70 percent of my home State of Utah.
    Now, people in most of the country do not know what that 
means, but Utahans certainly do. It means that the Federal 
Government has the responsibility to address issues and 
problems related to the Federal land itself. And this is not 
the first time I have addressed the Federal Government's 
failure to live up to that responsibility.
    Last year, for example, I offered an amendment to the 
immigration bill that would enhance penalties for marijuana 
cultivation on Federal land. Now, this Committee adopted my 
amendment by unanimous consent. These activities pose a direct 
threat to public safety in and around our communities.
    Do you agree that this is a serious problem and that it is 
the Federal Government's responsibility to solve it?
    Administrator Leonhart. I do, Senator, and, you know, we 
have worked with our State and local counterparts in Utah and 
have done a number of cases, just as you have mentioned, that 
have been on public lands.
    Senator Hatch. I appreciate that.
    Administrator Leonhart. It seems that we each year are 
seizing more and more plants until recently. We have almost 
seen a shift off of public lands, though, to indoor grows, but 
the importance of continuing to go after the growing on public 
lands is, number one, it is an enforcement priority for the 
Government because that is Government property; growing on 
public lands, there is a lot of concern because we see Mexican 
trafficking groups take hold on a number of those grows. We 
also are concerned because of the dangers, you know, someone 
hiking through the woods coming across a grow. There have been 
instances, not just in Utah but instances in other States, 
where there have been booby traps, and it is dangerous.
    So we have continued our efforts. We continue to run an 
eradication-suppression program. We continue to fund State and 
local authorities who pledge to go and take enforcement on 
public lands. And we will continue to do so, and I know you 
have been very supportive in our efforts, and I want to thank 
you for that.
    Senator Hatch. Well, thank you. The problem I just 
described is getting worse for two related reasons:
    First, with the second-highest percentage of Federal land 
ownership in my home State, Utah sits next to Colorado, which 
now has legalized marijuana. The international drug cartels 
that already had been invading Federal land to cultivate 
illegal drugs will inevitably work to increase supply to meet 
the increased demand.
    And, second, even though your prepared statement says that 
the administration ``continues to steadfastly oppose marijuana 
legalization,'' the Justice Department announced that it will 
not challenge the legalization of marijuana in either Colorado 
or Washington. In addition, the administration says it wants to 
lower sentences for drug offenders and even invites those now 
in prison to apply for clemency.
    Now, to me, those are not welcome developments in a State 
like Utah where the Federal Government should be doing more to 
prevent its land from being used to fuel the problem.
    Now, do you agree that legalization of marijuana will 
increase the demand for marijuana and possibly other drugs as 
well?
    Administrator Leonhart. Senator, the administration opposes 
legalization of marijuana, and I believe one of the reasons it 
does oppose it is we know that where we see marijuana 
legalized, you should expect more use.
    Senator Hatch. Okay. Your prepared statement details some 
of the evidence that marijuana is, in fact, harmful to a 
person's physical and intellectual development and may very 
well impair their quality of life. Now, research also shows, 
however, that whether a person will use drugs depends very much 
on whether that person believes that the drug is harmful.
    According to the Monitoring the Future Study, the 
perception of harm for regular marijuana use among 12th graders 
has steadily declined. Young people increasingly see marijuana 
as legal and medicinal rather than harmful. And now we see 
innocent-looking edibles such as what appear to be cookies or 
even candy that ABC News has reported can be exponentially more 
potent than when marijuana itself is smoked.
    I have here in my hand an Alert Bulletin from the Colorado 
Information Analysis Center dated March 19, 2014. It says that 
there has been an increased amount of marijuana-infused 
products sold to the public and that these products include 
fruit chews, cupcakes, and even butter and banana bread--in 
fact, more than that.
    Mr. Chairman, I ask consent to place this bulletin in the 
record at this point.
    Senator Whitehouse. Without objection, it shall be included 
in the record.
    [The bulletin appears as a submission for the record.]
    Senator Hatch. Thank you, Mr. Chairman.
    Now, Ms. Leonhart, I think the inevitable result of this 
trend will be increased use, abuse, and addiction. Do you share 
my concerns on this?
    Administrator Leonhart. You have a right to be concerned, 
and as law enforcement officers, we are very concerned about 
that, especially when we see some of these edibles--the people 
who are making them and selling them are calling them ``adult 
gummy bears,'' but you cannot even tell the difference between, 
you know, kids' gummy bears and those laced with marijuana.
    So we are very concerned, and it is one of the reasons why 
the Department of Justice in the August 29th memo with the 
eight factors--and they have, you know, factors in there 
related to kids, selling to kids. It is another reason why they 
put that memo out in anticipation that the States that pass 
legalization will put in place aggressive--not just on paper 
but real aggressive oversight, regulatory systems to take care 
of that. And we are very concerned about those edibles and 
about the high concentration. You know, a person you heard 
about, the young student who jumped out a window after eating 
the cookie, which was, you know, seven or eight servings, not 
just one. We are concerned about all of that. The marketing, 
when these packages look like they are marketed for kids, they 
look like candy bar wrappers. We share your concern.
    Senator Hatch. Well, I appreciate it.
    Mr. Chairman, can I ask one other question?
    Senator Whitehouse. Of course. It is just the two of us. 
Please proceed. Take the time you need.
    Senator Hatch. See what a great Chairman he is?
    I mentioned earlier what I consider to be the 
administration's misguided invitation for Federal prisoners to 
seek clemency in these cases. Now, the President has the 
authority to grant clemency in individual cases, and I would be 
the first to stand up for that right, and I think it should be 
exercised from time to time, and I decried some of the former 
Presidents not exercising clemency a little more than they do.
    But I cannot remember a President using that authority to 
change sentences for an entire category of Federal prisoners 
simply because he does not think that they should be in prison.
    Now, Congress alone has authority to determine sentencing 
policy, but I do not think the President appears to understand 
that. He is, in effect, trying to set sentencing policy on his 
own.
    Now, I do not expect you to comment on the President's 
decision, but I did want to state for the record that I think 
he is going too far, that he is misuing his authority. And I 
will help him on clemency because I think sometimes we do not 
use that power enough as President. But I think he should work 
with us in Congress rather than against Congress, and I think 
that I would just recommend that to the President as part of 
this hearing.
    But States choosing to legalize marijuana will in some way 
regulate that to commercial activity. But as you know, the same 
criminal organizations that profit from selling marijuana deal 
also in drugs such as heroin, cocaine, methamphetamine, as well 
as engaging in human trafficking and other drug-related crimes.
    Now, law-abiding citizens and legislators may distinguish 
between such things, but traffickers and other criminals do not 
distinguish between them. They simply follow the money.
    What is the DEA doing to ensure that stores and 
dispensaries that legally sell marijuana do not act as fronts 
for illegal activities? And, further, how are you monitoring 
that marijuana being sold in these dispensaries is not obtained 
from criminals?
    Administrator Leonhart. Senator, we are concerned about 
that. On the first part, we have continued--where we see in 
Colorado or Washington, where we see these dispensaries that 
are impacting the eight factors in the August 29th memo, we are 
taking action. Just the action--and I am not sure if you were 
here, but I mentioned earlier about an action that we took in 
Colorado on Friday. Concerns for us were that the money that 
went into this business came from Colombia and Colombian 
nationals. So we took action and we will continue to take 
action where we see violations of those eight Federal 
priorities.
    Senator Hatch. Thank you. Mr. Chairman, I appreciate you 
giving me this extra time.
    Senator Whitehouse. I am delighted to do it.
    Senator Hatch. Thank you, Madam.
    Senator Whitehouse. The topic of the mandatory minimums has 
come up on several occasions, and I just wanted to close with a 
comment on that. I have been the U.S. Attorney for Rhode 
Island, and I have been the Attorney General of Rhode Island, 
and clearly from a law enforcement perspective, there is 
enormous value to mandatory minimums. But as I think both 
courts and prosecutors agree, they also represent a shift of 
power from the court to make sentencing decisions to the 
prosecutors and to law enforcement to have sentencing decisions 
implicitly made through charging decisions. And the power that 
gives prosecutors can be very helpful. I have used it myself, 
because the threat of how you charge a case can turn a 
defendant in to a cooperator, and a cooperator can turn into a 
valuable witness against an even more dangerous defendant.
    So as we approach this issue, I think we have to recognize 
that this was an important tool in the hands of law 
enforcement. But at the same time, I think we also have to 
recognize that, from a cost-benefit equation, some people who 
ended up in prison for very lengthy terms for relatively minor 
offenses were not--the effort was not serving the public, was 
not serving the public safety, and it was not serving the 
taxpayer.
    And so we are clearly in a conversation on that right now, 
particularly in the Judiciary Committee, as it relates to the 
Durbin-Lee Smart Sentencing Act. I think that is a conversation 
that is well worth having, and I think there is room for 
progress there.
    There are clearly two sides to the equation, but I wanted 
to make sure that the record of this hearing recognized the 
other side of the equation, which is that, from a public safety 
and effectiveness point of view, these mandatory minimums have 
their downsides as well as their upsides.
    I also wanted to express concern with something, Madam 
Administrator, that you said to Chairman Leahy with regard to a 
program that has been of interest to Members of this Committee. 
You indicated, if I wrote it down correctly, that you all have 
briefed Members of the Committee. I do not believe that has 
actually taken place. I think what has taken place is that 
Members of the Committee asked to be briefed, and we were told 
that that was not possible because of an ongoing agency review. 
And then when we pressed, we were allowed a law enforcement-
sensitive staff briefing, which consisted of the staff being 
told that they could not be briefed on this because there were 
not Members present.
    So I think that was a not entirely satisfactory turn of 
events given that Members had been excluded from the meeting. 
The only thing that was offered was a staff briefing at that 
point.
    So we are working our way through that, and I think we are 
going to get our briefing, but I do want to do two things: one 
is a question for the record to the Drug Enforcement 
Administration for whatever constitutional basis you think 
there is for a claim that congressional oversight is limited by 
ongoing agency review. To me that is a constitutional 
proposition that has no support and no substance. It appears to 
have been the basis for delaying the member briefing, and so 
perhaps you are aware or your general counsel is aware of 
constitutional principles I am not aware of, and I would like 
to have them put on record as a response to a question for the 
record in this hearing how they would answer that question.
    Pushing for that briefing has been kind of a challenging 
experience. Pushing to try to get the e-prescribing rules 
changed, which took 3 years, was a challenging experience. 
Senator Grassley and I helped referee the battle between DEA 
and GAO over GAO's inquiries into drug shortages. That was kind 
of a challenging experience. And as I look at the e-prescribing 
connection to prescription drug monitoring programs, once again 
it seems that we see challenges. I do not know if that is 
representative of a larger, ongoing bureaucratic culture of 
non-cooperation at DEA, but as these individual events begin to 
stack up, episodes begin to look like a pattern. And perhaps in 
response to a question for the record, you could explain DEA's 
position with regard to those different instances, because I do 
not think that the agency wants to develop a reputation as an 
agency that does not cooperate and does not work well with 
others.
    Administrator Leonhart. You are absolutely right.
    [The information referred to appears as a submission for 
the record.]
    Senator Whitehouse. I assume that you have no concern with 
first responders getting access to naloxone for overdoses 
when----
    Administrator Leonhart. We are very supportive of that, in 
fact, helped raise that with the International Association of 
Chiefs of Police who passed a resolution so that their members 
were aware that that is a very good way for police departments 
and first responders to attack the heroin and opiate overdose 
problem.
    Senator Whitehouse. Good. And I think we all applaud 
Attorney General Holder for having made the statement that he 
did and pushed this issue forward from local first responders, 
whether law enforcement or EMT or Fire, to be prepared for the 
circumstances as we are presented with them more and more. I 
had a hearing--I should not say a hearing--a conference 
yesterday, Senator Portman and I did, on addiction and 
recovery, and one of the statistics that emerged from that is 
that 105 Americans die every day from overdoses. And to the 
extent we can stem that toll of death and tragedy by having our 
first responders properly prepared, that seems like a good 
thing to do.
    So I thank you for appearing before the Committee. I thank 
the DEA for their courage and their vigilance in executing 
their law enforcement responsibilities. You and I have a friend 
in common who is a DEA agent whose career includes a particular 
instance of very great bravery, done for a very important 
purpose, and I think of DEA in those terms very often. So we 
wish you well in the work that you do, and we look forward to 
continuing a healthy and robust relationship between this 
Committee and your agency.
    The record of this hearing will remain open for one 
additional week if anybody wishes to add anything, and subject 
to that, the hearing is closed.
    Administrator Leonhart. Thank you.
    [Whereupon, at 11:32 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]



</pre></body></html>
